HHS/OIG, Audit -"Review of Medicare Inpatient Rehabilitation Facility Prospective Payments at Weldon Rehabilitation
Hospital for Fiscal Year 2003,"(A-01-04-00504)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Inpatient Rehabilitation Facility Prospective Payments at Weldon Rehabilitation Hospital for Fiscal
Year 2003," (A-01-04-00504)
July 23, 2004
Complete Text of Report is available in PDF format (210 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Weldon Rehabilitation Hospital (Weldon) billed
inpatient rehabilitation facility (IRF) claims for fiscal year 2003 in compliance with Medicare prospective payment system
(PPS) regulations.  We found that Weldon had established adequate procedures for completing and transmitting patient
assessment instruments.  However, we found that Weldon billed 49 claims that were not in compliance with Medicare
PPS regulations.  As a result, the hospital received Medicare overpayments totaling $202,872.  Overpayments occurred
because Weldon did not:  (1) establish adequate controls for properly coding patient status; and (2) adhere to existing
controls for billing interrupted stays.  We recommended that Weldon: (1) implement policies and procedures for correct
coding of patient status codes and provide training and internal monitoring to ensure successful implementation; (2) monitor
adherence to its existing controls for billing interrupted stays; and (3) refund overpayments.  Weldon agreed with
our findings.